TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Analysis of Internal Revenue Service
                                Employees’ Use of
                           Tax Preparation Assistance



                                         January 9, 2012

                              Reference Number: 2012-40-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-Mail Address | TIGTACommunications@tigta.treas.gov
 Website       | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 9, 2012


 MEMORANDUM FOR THE TREASURY INSPECTOR GENERAL FOR TAX
                ADMINISTRATION



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Analysis of Internal Revenue Service Employees’ Use of Tax
                             Preparation Assistance (Audit # 201140043)

 This report presents the results of our analysis of Internal Revenue Service (IRS) employees’ use
 of tax preparation assistance. This review was conducted in response to House Conference
 Report 112-331,1 which required TIGTA to submit a report to the House and Senate Committees
 on Appropriations on the extent to which IRS employees use tax preparation software or hire tax
 preparation professionals and how those rates compare to the general public.

 This analysis was performed using the IRS data that provide the method that individuals and IRS
 employees used to file their individual income tax returns for Tax Years 2009 and 2010 through
 May 21, 2011.

 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
  Division C of the Joint Statement of Managers, a subpart of House Conference Report 112-331, which
 accompanied H.R. 2055, the Consolidated Appropriations Act, 2012, approved the reporting requirement
 contained within the House Committee Report on H.R. 2434, the Financial Services and General
 Government Appropriations Act, 2012.
                                         Analysis of Internal Revenue Service
                                     Employees’ Use of Tax Preparation Assistance




                                             Table of Contents

Background ............................................................................................................ Page 1

Results of Review ................................................................................................. Page 2
          Internal Revenue Service Employees’ Use of Tax Return
          Preparation Assistance .................................................................................... Page 2

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................... Page 4
          Appendix II – Major Contributors to This Report .......................................... Page 5
                                   Analysis of Internal Revenue Service
                               Employees’ Use of Tax Preparation Assistance




                                           Background

According to Internal Revenue Service (IRS) Publication 4822, Taxpayer Filing Attribute
Report, almost 60 percent of taxpayers pay a tax return preparer to prepare their tax return and
32 percent use tax preparation software. Taxpayers have several options when preparing their
tax return, including paying a tax return preparer to
prepare and file their tax return, receiving assistance at
                                                            The IRS estimates that almost
a volunteer tax assistance site, using electronic tax       60 percent of taxpayers use a
preparation software1 to file their tax return                  tax return preparer and
electronically, or self-preparing their tax return on       32 percent use tax preparation
paper. For the purpose of our analysis, we categorized         software to prepare their
the various tax return preparation/filing methods into       individual income tax return.
two categories:
    •   Paid Preparer: This category consists of individuals who had tax return preparer
        information included on their tax return and filed either a paper or electronic tax return.
        This category also includes tax returns that could have been prepared by IRS employees
        at a Taxpayer Assistance Center, the Volunteer Income Tax Assistance Program, and the
        Tax Counseling for the Elderly Program.
    •   Self Prepared: This category consists of individuals who prepared their own tax return
        or who used electronic tax preparation software to prepare and file their own tax return.
Our data analysis was performed in the Treasury Inspector General for Tax Administration’s
office in Kansas City, Missouri, during the period May through August 2011. We conducted this
analysis in response to House Conference Report 112-331, which accompanied H.R. 2055, the
Consolidated Appropriations Act, 2012, to determine the extent that IRS employees hire tax
return preparers or use electronic tax preparation software and how this compared to the
taxpaying public. Detailed information on our objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




1
 Tax preparation software can be purchased either over-the-counter or online. The software’s question and answer
format makes doing taxes easier than filling out forms.
                                                                                                         Page 1
                                     Analysis of Internal Revenue Service
                                 Employees’ Use of Tax Preparation Assistance




                                        Results of Review

Internal Revenue Service Employees’ Use of Tax Return Preparation
Assistance
Overall, IRS employees are less likely to use a paid preparer to prepare their tax returns when
compared to the general taxpaying population. Figure 1 provides a comparison of tax returns
prepared by a paid preparer for IRS employees and the general taxpaying population.

                              Figure 1: Comparison of Tax Returns
                          Prepared by Paid Preparers for Tax Year 2 2009




         Source: Treasury Inspector General for Tax Administration analysis of the IRS Individual Master File,3
         Individual Return Transaction File,4 and Tax Return Database for Tax Year 2009. 5




2
  A tax year is a 12-month accounting period for keeping records on income and expenses used as the basis for
calculating the annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  This file contains data transcribed from initial input of the original individual tax returns during return processing.
5
  A system that stores original tax return information submitted by the taxpayer within 24 hours of receipt within the
IRS.
                                                                                                                 Page 2
                                 Analysis of Internal Revenue Service
                             Employees’ Use of Tax Preparation Assistance



We performed a similar analysis for tax returns filed for Tax Year 2010 as of May 21, 2011. We
identified similar results—IRS employees used a paid preparer to prepare their tax returns
26 percent of the time compared to 59 percent for the general taxpaying population.
The results of the analysis showed that IRS employees were more likely to prepare their own tax
return manually or use electronic tax preparation software (73 percent of the time) when
compared to the general taxpaying public (40 percent of the time). Figure 2 provides a
comparison of IRS employees who prepared their own tax return manually or used electronic tax
preparation software to the general taxpaying public.
           Figure 2: Comparison of Tax Returns That Were Self-Prepared
           Manually or Using Tax Preparation Software for Tax Year 2009




      Source: Treasury Inspector General for Tax Administration analysis of the IRS Individual Master File,
      Individual Return Transaction File, and Tax Return Database for Tax Year 2009.

We performed a similar analysis for tax returns filed for Tax Year 2010 as of May 21, 2011. We
identified similar results—IRS employees prepared their own tax return manually or used
electronic tax preparation software 74 percent of the time compared to 41 percent for the general
taxpaying population.




                                                                                                        Page 3
                              Analysis of Internal Revenue Service
                          Employees’ Use of Tax Preparation Assistance



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

We conducted this analysis in response to House Conference Report 112-331, which
accompanied H.R. 2055, the Consolidated Appropriations Act, 2012, to determine the extent that
IRS employees hire tax return preparers or use electronic tax preparation software and how their
use of these services compared to that of the taxpaying public.
We obtained a data extract of all tax returns filed for Tax Years 2009 and 2010. We included
fields from the IRS’s Individual Master File, the Individual Returns Transaction File, and the
Tax Return Database. We validated 10 records from each tax year and confirmed that the
information obtained matched the information on the IRS computer systems.
I.     We analyzed the information for Tax Years 2009 and 2010 in order to obtain information
       on the overall population’s use of tax preparation professionals and the use of software.
       A. We separated the population file into those tax returns that were filed on paper and
          those that were filed electronically.
       B. We determined which paper tax returns were filed via software and if they included
          tax preparer information.
       C. We determined whether the electronically filed tax returns were filed via software and
          whether they included tax preparer information.
II.    We extracted all employee filed tax returns for Tax Years 2009 and 2010 in order to
       obtain information on IRS employee use of tax preparation professionals and the use of
       software.
       A. We separated the IRS employee file into those tax returns that were filed on paper
          and those that were filed electronically.
       B. We determined which paper tax returns were filed via software and if they included
          tax preparer information.
       C. We determined whether the electronically filed tax returns were filed via software and
          whether they included tax preparer information.




                                                                                           Page 4
                             Analysis of Internal Revenue Service
                         Employees’ Use of Tax Preparation Assistance



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L.Baiza, Audit Manager
Sharla J. Robinson, Lead Auditor
Lawrence R. Smith, Senior Auditor
Martha A. Stewart, Information Technology Specialist




                                                                                     Page 5
